                   RESULTS ACT PERFORMANCE MEASUREMENT
                    FOR THE MINORITY SMALL BUSINESS AND
                  CAPITAL OWNERSHIP DEVELOPMENT PROGRAM

                                   AUDIT REPORT 1-11


                                      MARCH 27, 2001




This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission of the Office of
Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416


                                                                      AUDIT REPORT
                                                              Issue Date: March 27, 2001
                                                              Number: 1-11



To:            William A. Fisher
               Acting Associate Deputy Administrator, Government
               Contracting & Business Development

               Delorice P. Ford
               Associate Administrator, Business Development




From:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

Subject:       Audit Report-Results Act Performance Measurement for the Minority Small
               Business and Capital Ownership Development Program

        Attached is a copy of the subject audit report. The report contains three findings and four
recommendations. The findings in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendations are subject to review and
corrective action by your office in accordance with existing Agency procedures for audit follow-
up and resolution. Please provide your management decision for each recommendation
addressed to you on the attached SBA Forms 1824, Recommended Action Sheet, within 30 days.

       Should you or your staff have any questions, please contact Robert Hultberg, Director,
Business Development Programs Group at (202) 205-7204.
                                        AUDIT REPORT
                           RESULTS ACT PERFORMANCE MEASUREMENT
                            FOR THE MINORITY SMALL BUSINESS AND
                          CAPITAL OWNERSHIP DEVELOPMENT PROGRAM


                                                          Table of Contents

                                                                                                                                           Page

SUMMARY .............................................................................................................................. i

INTRODUCTION

          A. Background .............................................................................................................. 1

          B. Objectives and Scope .............................................................................................. 1

RESULTS OF AUDIT

          1. SBA’s Definition of Success for the 8(a) BD Program Differed from
             Statute ....................................................................................................................... 3

          2. Need for Effectiveness and Efficiency Indicators for the 8(a) BD Program ............ 4

          3. Some Performance Data for the 8(a) BD Program was Unreliable or
             Incorrectly Described ................................................................................................ 5

APPENDIX

          A. Audit Report Distribution
                                          SUMMARY


        In 1998, Congressional leaders requested that Inspectors General review how effectively
their agencies are measuring performance under the Government Performance and Results Act of
1993 (Results Act) and the reliability of the underlying data. In response to these requests, the
Office of Inspector General initiated a series of audits to evaluate the goals and performance
indicators the Small Business Administration (SBA) developed for its major programs. This
report examines whether SBA meets the performance measurement requirements of the Results
Act for the Minority Small Business and Capital Ownership Development (8(a) BD) program.

        In enacting the Results Act, Congress intended to improve the effectiveness and
efficiency of Federal programs by establishing a system to set goals for program performance
and to measure results. To implement this Act, executive agencies must prepare multi-year
strategic plans, annual performance plans that include performance indicators, and performance
reports. Presently, SBA’s Acting Ombudsman has overall responsibility for coordinating the
implementation of the Results Act for all SBA programs. The Office of Government
Contracting & Business Development (formerly the Office of Government Contracting &
Minority Enterprise Development) developed 8(a) BD program performance measures based on
guidance provided by officials responsible for coordinating SBA’s Results Act implementation.
To answer the objective of whether SBA meets the performance measurement requirements of
the Results Act for the 8(a) BD program, we determined whether: (1) goals align with the
statutory mission, (2) indicators align with goals, and (3) reliable data exists.

       SBA has not adequately implemented performance measurement requirements of the
Results Act for the 8(a) BD program. SBA’s definition of success for the 8(a) BD program
contained in its Fiscal Year (FY) 2001 Results Act Annual Performance Plan (Performance Plan)
omitted the measures of success for the 8(a) BD program as defined by law. As such, the
Performance Plan does not inform Congress how successful the 8(a) BD program is, as the law
defines success. We also found that:

   •   the Performance Plan lacked effectiveness and efficiency performance indicators for the
       8(a) BD program;

   •   the data contained in the SBA database for the 8(a) BD program was generally accurate
       concerning which fiscal year that 8(a) BD program participants (8(a) firms) left the
       program; and

   •   some performance data was unreliable or incorrectly described.

       We recommend that the Associate Deputy Administrator, Government Contracting &
Business Development, in coordination with the SBA Official responsible for coordinating
SBA’s Results Act implementation, ensure that:

   •   SBA define success for the 8(a) BD program in accordance with Public Law 100-656;



                                                i
   •   the Performance Plans include indicators that allow for a determination of how
       effectively and efficiently the 8(a) BD program is operating; and

   •   the Performance Plans accurately describe and report performance goals and data.

We also recommend that the Associate Administrator, Business Development implement a
tracking system, which ensures that termination requests of 8(a) firms are tracked through final
resolution.

        In response to our draft report, the Acting Associate Deputy Administrator, Government
Contracting & Business Development and the Associate Administrator, Business Development
verbally informed us that they took no exception to the audit results presented in our draft report.
In addition, one of the SBA officials responsible for coordinating the implementation of the
Results Act in SBA provided informal comments, generally agreeing with our findings. We
analyzed these comments and modified the final report, as appropriate.




                                                 ii
                                       INTRODUCTION


A. Background

        In 1993, Congress passed the Results Act with the objective to improve Federal program
effectiveness and public accountability by promoting a new focus on results, service quality, and
customer satisfaction. The Results Act is intended to improve the effectiveness and efficiency of
Federal programs by establishing a system to set goals for program performance and measure
results. Performance indicators are values or characteristics used to measure results associated
with annual goals and are an integral part of annual performance plans and reports. The Results
Act requires agencies to prepare annual reports on their performance for the previous fiscal year.

        Sections 7(j) and 8(a) of the Small Business Act authorize the 8(a) BD program. A
purpose of both of these sections is to promote the competitive viability of 8(a) firms by
providing “such available financial, technical, and management assistance as may be
necessary.” In “A Report to the U.S. Congress on Minority Small Business and Capital
Ownership Development for Fiscal Year 1999,” SBA reported that the 8(a) BD program
provides “a menu of business development resources such as marketing, managerial, technical,
financial and procurement assistance.” Companies owned by socially and economically
disadvantaged individuals can participate in the 8(a) BD program for up to nine years. At the
end of Fiscal Year (FY) 1999, there were 5,969 8(a) firms. During FY 1999, $6 billion of
contract actions and modifications to existing contracts were awarded under the 8(a) BD
program, of which, $4.3 billion were awarded to active 8(a) BD firms.


B. Objectives and Scope

        This report examines whether SBA meets the performance measurement requirements of
the Results Act for the 8(a) BD program. To fulfill this objective, we sought answers to three
basic questions. Do the program’s goals align with its statutory mission? Do the performance
indicators align with the goals and show the results of the program in terms of effectiveness and
efficiency? How reliable is the supporting data? To answer these questions, we reviewed SBA’s
FY 2001 Performance Plan, the Small Business Act, and Public Law 100-656.

       We identified the relationships between the mission and goals of the 8(a) BD program.
To evaluate the extent to which the performance goals and indicators aligned with the statutory
mission, we compared the goals and indicators to each aspect of the mission to ensure that all
aspects were addressed.

        To determine whether the performance indicators addressed the Results Act requirement
of effectiveness and efficiency indicators relative to the statutory objectives of the program, we
established the following categories:

   •   Outcomes
   •   Service quality (Customer – Partner)


                                                 1
   •   Cost
   •   Process/Output
   •   Financial.

We examined the indicators and identified the category of effectiveness and/or efficiency for
each indicator. If an indicator could not be linked to a category, and did not meet the definition
of effectiveness or efficiency, we did not consider it an indicator of effectiveness or efficiency.

        To determine whether 8(a) BD performance indicators were supported by reliable data,
we traced reported performance measurement data for FY 1999 back to supporting documents in
10 SBA District Offices. We analyzed the underlying data to determine whether it was
sufficient, accurate, consistent and timely.

       Fieldwork was performed from November 2000 to February 2001. The audit was
performed in accordance with generally accepted Government Auditing Standards.

       We issued a draft report to the Agency officials responsible for the findings and
recommendations in this report on March 8, 2001. These officials did not provide us a written
response to each finding but informed us verbally that they took no exceptions to the findings
and recommendations presented in the report.




                                                  2
                                     RESULTS OF AUDIT

Finding 1: SBA’s Definition of Success for the 8(a) BD Program Differed from Statute

       SBA’s definition of success for the 8(a) BD program contained in its Performance Plan
omitted the measures of success for the 8(a) BD program contained in the law. As such, the
Performance Plan does not inform Congress how successful the 8(a) BD program is, as the law
defines success.

         SBA’s Performance Plan measured the success of the 8(a) BD program as the percent of
8(a) firms completing the nine-year program or graduating early and receiving business
development assistance. For FY 1999, SBA reported that 68% (345 of the 510) of the firms
completed the program or graduated early and received business development assistance. Of
these 345 firms, one graduated early and 344 graduated, i.e., completed their nine-year terms.
The one firm which graduated early met its competitive mix requirements, i.e., not being
unreasonably reliant on 8(a) contracts, substantially achieved the targets, objectives, and goals
set forth in its business plan, and demonstrated the ability to compete in the marketplace without
assistance under the 8(a) BD program. The 344 graduated firms maintained their program
eligibility during the nine-year program term, but at the end of their program term, SBA did not
determine that each firm met its competitive mix requirements, substantially achieved the targets,
objectives, and goals set forth in its business plan, or demonstrated the ability to compete in the
marketplace without assistance under the 8(a) BD program. SBA classified all 8(a) firms as
having received business development assistance since they all were required to attend an
orientation briefing upon entering the program and were invited to annual meetings (see
Finding 3).

       Public Law 100-656 states that:

       . . . the measure of success of the Capital Ownership Development Program and
       the section 8(a) authority, shall be the number of competitive firms that exit the
       Program without being unreasonably reliant on section 8(a) contracts and that can
       compete in the mainstream of the American economy. . .

According to § 7(j)(10)(H) of the Small Business Act, an 8(a) firm demonstrates its
ability to compete in the marketplace without assistance from the 8(a) BD program by
substantially achieving the targets, objectives, and goals contained in that firm’s business
plan. SBA did not have any measures to capture this aspect.

                                         RECOMMENDATION

1A.    We recommend that the Associate Deputy Administrator, Government Contracting &
       Business Development, in coordination with the SBA Official responsible for
       coordinating SBA’s Results Act implementation, ensure that SBA measure the success of
       the 8(a) BD Program in accordance with the measure of success prescribed in Public Law
       100-656.




                                                 3
Finding 2: Need for Effectiveness and Efficiency Indicators for the 8(a) BD Program

        Performance indicators reported in SBA’s Performance Plan did not include effectiveness
and efficiency indicators for the 8(a) BD program. The absence of these indicators precludes
Congress from determining how effectively and efficiently the 8(a) BD program is operating.

        The indicators reported in the Performance Plan do not measure effectiveness and
efficiency because they do not provide information relative to aspects of performance, e.g.,
outcome, service quality, and cost. The Results Act intended to improve congressional decision
making by providing more objective information on achieving statutory objectives and the
relative effectiveness and efficiency of Federal programs and spending. Effectiveness and
efficiency indicators would allow for an assessment of how timely and accurately the 8(a) BD
program provided participants (customer) with the business development assistance (service
delivery) needed to compete (service quality), and whether assistance was provided in a cost
efficient manner (cost).

        The 8(a) BD indicators in the Performance Plan are: (1) percentage of firms that
completed the nine-year term or graduated early and received business development assistance,
(2) firms receiving mentoring, and (3) percentage share of Federal contract dollars to 8(a) firms.
These indicators do not measure how well SBA achieved its purpose of assisting eligible small
disadvantaged business concerns compete in the American economy through business
development. The business development assistance referred to in the first indicator was an
orientation briefing and invitations to attend annual 8(a) BD meetings (see Finding 3). The
second indicator was mentoring, a form of business development assistance used by only 26 of
the 5,969 firms in the 8(a) BD program at the end of FY 1999. The third indicator was a
government-wide small business goal, not an 8(a) BD program goal. Together, these indicators
provide minimal information relative to the number of participants assisted, the amount of
business development assistance provided, whether the assistance provided addressed
competitive needs in a timely manner, or the cost of providing business development assistance.
Therefore, these indicators are insufficient to show, in a substantive way, how effectively and
efficiently SBA is managing the 8(a) BD program.

                                    RECOMMENDATION

2A.    We recommend that the Associate Deputy Administrator for Government Contracting &
       Business Development, in coordination with the SBA Official responsible for
       coordinating SBA’s Results Act implementation, ensure that the Performance Plans
       include performance indicators that allow for a determination of how effectively and
       efficiently the 8(a) BD program is operating.




                                                 4
Finding 3: Some Performance Data for the 8(a) BD Program was Unreliable or Incorrectly
          Described

        The success rate data for 8(a) firms, although technically accurate according to SBA’s
definition in the Performance Plan, was unreliable because firms were permitted to remain in the
8(a) BD program without SBA servicing (no contact with the firm and no annual review
completed) these firms, and SBA did not process several terminations. SBA did not take
appropriate action to follow-up or terminate certain firms even though circumstances warranted
SBA’s intervention. As a result, SBA does not know whether these firms should have remained
in the 8(a) program for the full nine-year term, and as such be classified as successes. We
reviewed 145 firms that SBA classified as successes because they graduated, i.e., completed their
nine-year program term, in FY 1999. Of these 145 firms, SBA had not serviced eight of them
for over two years. One of the eight had filed for Chapter 7 Bankruptcy and another for Chapter
11 Bankruptcy protection. We also found three additional instances where SBA did not process
terminations, and therefore the firms were allowed to remain in the 8(a) program where they
were counted as successes. We could not pinpoint at what point SBA failed to process the
paperwork since SBA did not have a central tracking mechanism to track termination requests
and resolutions. Without a central tracking mechanism, SBA cannot determine whether it has
processed all cases referred for termination.

        Additionally, we noted a deficiency in the manner in which SBA determined that 8(a)
firms received business development assistance. According to SBA’s Performance Plan, in order
to be considered a success, a company had to receive business development assistance. SBA,
however, did not disclose that all 8(a) firms were automatically considered to have received
business development assistance because every firm was required to attend an orientation
briefing upon entering the program and all firms were invited to attend annual 8(a) BD meetings.
In the Small Business Act, various forms of business development assistance are mentioned,
including contract, financial, technical, and management assistance. We believe that “receiving
business development assistance,” conveys more than merely attending an orientation briefing
and annual meetings. SBA does not track the business development assistance provided to 8(a)
firms.

        SBA mislabeled the mentor-protégé data in the Performance Plan. Although SBA
actually reported the percentage of interested 8(a) firms participating in the Mentor-Protégé
program, it described the measure as the percentage of Small Disadvantaged Businesses (SDBs)
participating in the Mentor-Protégé program. Since the Mentor-Protégé program was designed
exclusively for 8(a) firms, only those SDBs that are 8(a) firms can receive mentoring. At the
time SBA gathered the Performance Plan data, there were 8,025 SDBs of which 5,401 were also
8(a)-certified, but only 1,784 8(a) firms had expressed interest in the mentor-protégé program.




                                                5
                                RECOMMENDATIONS

We recommend that:

3A.   The Associate Deputy Administrator, Government Contracting & Business
      Development, in coordination with the SBA Official responsible for coordinating SBA’s
      Results Act implementation, ensure that the Performance Plans accurately describe and
      report performance indicators and data.

3B.   The Associate Administrator, Business Development implement a tracking system, which
      ensures that termination requests of 8(a) firms are tracked through final resolution.




                                            6
                                                                                                                        APPENDIX A


                                                  Audit Report Distribution

Recipient                                                                                                         Number of Copies

Acting Administrator ............................................................................................................1

Acting Ombudsman ..............................................................................................................1

Financial Administrative Staff ..............................................................................................1
 Attention: Jeffrey Brown

General Counsel ....................................................................................................................2

General Accounting Office ...................................................................................................1
